OIG Investigative Reports, Federal Grand Jury Returns Superseding Indictment Against Six Former Orleans Parish School Employees
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release:
February 8, 2007
New releases can be found at our website at www.usdoj.gov/usao/lae.
United States Department of Justice
U. S. Attorney, Eastern District of Louisiana
Jim Letten
United States Attorney
500 Poydras Street, Suite B210
New Orleans, Louisiana 70130
Contact:
Kathy English (504) 680-3068
Federal Grand Jury Returns Superseding Indictment Against Six Former Orleans Parish School Employees
NEW ORLEANS, LOUISIANA ― Jim Letten, United States Attorney for the Eastern District of Louisiana, James Bernazzani, Jr., Special Agent in Charge of the Federal Bureau of Investigation, and Patricia Vangilder, Special Agent in Charge, Office of Inspector General, U. S. Department of Education, announced today that a Federal Grand Jury sitting in New Orleans returned a superseding indictment against six (6) defendants for fraudulently receiving pay based on over-inflated hours not actually worked while employed by the Orleans Parish School System. This superseding indictment generally expands the charges in an already existing indictment.
In December, 2004, the Grand Jury indicted two teachers and two clerical employees at Fannie C. Williams Middle School charging them with a Hobbs Act Conspiracy and extortion scheme. John Baker, Jr., age 42, of New Orleans, Drena Clay, age 38, of New Orleans, Trynitha Fulton, age 26, of New Orleans, and Debra Harrison, age 42, of New Orleans were all charged in the two count indictment.  Debra Harrison was the assistant secretary and Drena Clay was a special education teacher at Fannie C. Williams Middle School.  Baker, a child specific aide, and Fulton, a teacher, were new employees in the 2002-2003 school year. The superseding indictment returned today restates the Hobbs Act and conspiracy charges against Clay and Harrison.  However, it adds several charges against four more former Orleans Parish School System employees, Lillie Carmouche, age 57, Noble Garner, age 37, Willie Moore, Jr., age 45, and Walter Tardy, age 42. The first new charge alleges that Harrison, Clay, Carmouche, Garner, Moore and Tardy conspired to obtain money from the Orleans Parish School System by fraud.
Specifically, all are charged with being part of a scheme to receive payment for over-inflated class coverage hours they really did not work in exchange for a kickback to Harrison.  Clay, Tardy and Garner are each charged with the substantive count of fraudulently obtaining or attempting to obtain the money.  Harrison, Carmouche and Tardy are accused of lying to the FBI when questioned about the fraudulent scheme.
Each defendant faces a maximum of five (5) years incarceration for the conspiracy count, as well as a $250,000 fine, restitution to the school system, three (3) years supervised release and a $100.00 special assessment.  Clay, Tardy and Garner each face a maximum of ten (10) years incarceration, a $250,000 fine, as well as three (3) years supervised release for the fraudulent receipt of school funds.  Harrison, Carmouche and Tardy each face five (5)  years incarceration for each lie to the FBI, as well as a $250,000 fine, three (3) years supervised release and a $100 special assessment per count.
The United States Attorney cautions that an indictment is merely an allegation of a criminal offense and that all persons charged with a criminal offense are presumed innocent until proven guilty.
Speaking to today's indictment, U.S. Attorney Jim Letten stated:
"The four individuals charged in this latest indictment brings the total number of school employees charged to 28 in this far reaching corruption probe of the Orleans Parish School System. Of the 28 charged individuals, 22 have plead guilty as charged, including two individuals charged in the original indictment in this case, Baker and Fulton, who are scheduled to be sentenced on March 21, 2007.  The investigation continues and future corruption indictments are anticipated."
This case was investigated by Special Agents of the FBI and the U. S. Department of Education Office of the Inspector General.  It is being prosecuted by Assistant U. S. Attorneys Carter K. D. Guice, Jr. and G. Dall Kammer of the Financial Crimes Unit.
Top
Printable view
Share this page
Last Modified: 02/15/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov